Office of Material Loss Reviews
Report No. MLR-10-030


Material Loss Review of Georgian Bank,
Atlanta, Georgia




                                   April 2010
                                      Executive Summary

                                      Material Loss Review of Georgian Bank,
                                      Atlanta, Georgia
                                                                                     Report No. MLR-10-030
                                                                                                 April 2010

Why We Did The Audit
On September 25, 2009, the Georgia Department of Banking and Finance (DBF) closed Georgian Bank
(Georgian), Atlanta, Georgia, and named the FDIC as receiver. On October 9, 2009, the FDIC notified
the OIG that Georgian’s total assets at closing were $2.1 billion and the estimated material loss to the
Deposit Insurance Fund (DIF) was $807.7 million. As of April 1, 2010, the estimated loss to the DIF had
decreased to $798.4 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the
OIG conducted a material loss review.

The audit objectives were to (1) determine the causes of Georgian’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Georgian, including implementation of the Prompt
Corrective Action (PCA) provisions of section 38.


Background
Georgian was headquartered in Atlanta, Georgia and chartered as a state nonmember bank in November
2001. Georgian was wholly-owned by Georgian Bancorporation, Inc. (Bancorp), a single-bank holding
company. In addition to its main office, the bank operated four branch offices. In mid-2003, Georgian
notified the FDIC and the DBF of its plan to raise additional capital and change its business focus.
Growth was supported by Bancorp capital injections of $49 million, $31.9 million, and $36.7 million in
2003, 2005, and 2006, respectively.


Audit Results
Causes of Failure and Material Loss

Georgian failed because its Board and management, led by a senior bank official, pursued an aggressive
growth strategy focused on acquisition, development, and construction (ADC) lending that coincided with
declining economic conditions in the Atlanta metropolitan area. Although the growth strategy was
initially successful, the resulting increasing level of concentrations and corresponding lack of
diversification in the loan portfolio left the bank vulnerable to the significant downturn in the Atlanta
metropolitan residential real estate market. Concurrently, Georgian’s loan underwriting and
administration practices became increasingly lax and its financial condition began to decline. Georgian’s
reliance on brokered deposits to fund its growth and its relationship with a single large depositor also
factored significantly in the bank’s failure. By 2009, the bank’s assets were critically deficient, earnings
were poor, capital was weak, and prospects for raising additional capital were unfavorable. As its capital
eroded, Georgian’s largest depositor signaled its intent to withdraw its deposits, which severely strained
the bank’s liquidity position and ultimately led to its closure.

The FDIC’s Supervision of Georgian

The FDIC and the DBF conducted timely and regular examinations of Georgian and monitored its
condition through the use of offsite monitoring mechanisms. Examiners consistently identified and
reported on Georgian’s ADC concentrations and reliance on non-core funding. However, the bank’s asset
quality, liquidity, and overall financial condition were considered satisfactory until the 2008 examination.



                                  To view the full report, go to www.fdicig.gov
                                     Material Loss Review of Georgian Bank,
   Executive Summary                 Atlanta, Georgia

                                                                                     Report No. MLR-10-030
                                                                                                 April 2010

In 2008, asset quality was showing signs of deterioration due to the severe economic downturn, and
offsite analysis prompted an FDIC visitation in November 2008.

In hindsight, more supervisory emphasis on Georgian’s risk management practices prior to the visitation
in November 2008 would have been prudent. Doing so might have been beneficial in raising bank
management’s awareness of the broad supervisory expectations with regard to managing risk associated
with commercial real estate (CRE) and ADC concentrations, which ultimately Georgian failed to meet.
Further, examiners could have recognized earlier and emphasized Georgian’s lack of a viable contingency
funding plan, in light of the bank’s reliance on non-core funding and a single large depositor. Once
problems were identified, the FDIC and the DBF pursued supervisory actions. However, by the time
those actions became effective, the financial condition of the bank had become critically deficient.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. Georgian was unsuccessful in raising needed capital
and the bank was subsequently closed on September 25, 2009.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On April 7, 2010, the Director, Division
of Supervision and Consumer Protection (DSC), provided a written response to the draft report. DSC
reiterated the OIG’s conclusions regarding the causes of Georgian’s failure. With regard to our
assessment of the FDIC’s supervision of Georgian, DSC’s response stated that examiners consistently
noted Georgian’s ADC concentrations and reliance on non-core funding and made numerous
recommendations to improve risk management practices and procedures to identify and report
concentrations to the Board. In response to the FDIC’s November 2008 visitation, which revealed
significant deterioration in Georgian’s overall condition, the Board adopted a resolution agreeing to
address identified weaknesses. However, Georgian’s management and Board were unable to sufficiently
address its problems, and the FDIC and the DBF took action through a formal enforcement order. DSC’s
response acknowledged, as discussed in our report, that greater emphasis on the correction of Georgian’s
risk management practices prior to the November 2008 visitation could have influenced its Board and
reduced resulting losses. Further, DSC’s response identified updated guidance it has issued, also
discussed in our report, to enhance supervision of institutions, such as Georgian, with concentrations in
CRE/ADC lending and reliance on volatile non-core funding.




                                 To view the full report, go to www.fdicig.gov
                               Contents
                                                                    Page
Background                                                            2

Causes of Failure and Material Loss                                   2
  Aggressive Growth Strategy                                          3
  Loan Concentrations                                                 4
  Risk Management Practices                                           6
  Funding Strategy                                                   10

The FDIC’s Supervision of Georgian                                   12
   Supervisory History                                               12
   Supervisory Concern Related to Aggressive Growth Strategy         14
   Supervisory Concern Related to ADC Concentrations and Risk        16
   Management
   Supervisory Concern Related to Funding Strategy                   18
   Implementation of PCA                                             19

Corporation Comments                                                 20

Appendices
  1. Objectives, Scope, and Methodology                              21
  2. Glossary of Terms                                               23
  3. Acronyms                                                        25
  4. Corporation Comments                                            26

Tables
   1. Financial Information for Georgian, 2004 to 2009                2
   2. Georgian’s ADC Concentrations Compared to Peer Group            6
   3. Georgian’s Core and Non-Core Funding Sources, 2004 to 2009     11
   4. Examinations and Visitation of Georgian, 2004 to 2009          13
   5. Georgian’s Business Plan Compared to Actual Performance in     15
      2004

Figures
   1. Georgian’s Asset Growth, 2003 to 2008                           3
   2. Georgian’s ADC Loans as a Percentage of Average Gross Loans     5
      Compared to Peer Group, 2003 to 2008
   3. Georgian’s Net Non-Core Funding Dependence Ratio, 2004 to      11
      2009
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           April 9, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Georgian Bank, Atlanta, Georgia
                                                (Report No. MLR-10-030)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Georgian
Bank (Georgian), Atlanta, Georgia. The Georgia Department of Banking and Finance
(DBF) closed the institution on September 25, 2009, and named the FDIC as receiver.
On October 9, 2009, the FDIC notified the OIG that Georgian’s total assets at closing
were approximately $2.1 billion and that the estimated loss to the Deposit Insurance Fund
(DIF) was $807.7 million. As of April 1, 2010, the estimated loss to the DIF had
decreased to $798.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Georgian’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2
of Georgian, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. This report presents our analysis of Georgian’s failure and the FDIC’s
efforts to ensure that the Board of Directors (Board) and management operated the
institution in a safe and sound manner. The report does not contain formal
recommendations. Instead, as major causes, trends, and common characteristics of
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
institution failures are identified in our material loss reviews, we will communicate those
to FDIC management for its consideration. As resources allow, we may also conduct
more in-depth reviews of specific aspects of the FDIC’s supervision program and make
recommendations as warranted. Appendix 1 contains details on our objectives, scope,
and methodology. Appendix 2 contains a glossary of terms and Appendix 3 contains a
list of acronyms. Appendix 4 contains the Corporation’s comments on this report.

Background
Georgian was headquartered in Atlanta, Georgia and chartered as a state nonmember
bank in November 2001.3 Georgian was wholly-owned by Georgian Bancorporation,
Inc. (Bancorp), a single-bank holding company. In addition to its main office, the bank
operated four branch offices. In mid-2003, Georgian notified the FDIC and the DBF of
its plan to raise additional capital and change its business focus. Growth was supported
by Bancorp capital injections of $49 million, $31.9 million, and $36.7 million in 2003,
2005, and 2006, respectively. Table 1 provides details on Georgian’s financial condition
as of June 30, 2009 and for the 5 preceding calendar years.

Table 1: Financial Information for Georgian, 2004 to 2009
 Financial Measure
       ($000s)             Jun-2009      Dec-2008         Dec-2007     Dec-2006     Dec-2005     Dec-2004
Total Assets                2,230,230     2,242,028        2,039,632    1,619,353    1,153,552     736,929
Total Loans                 1,772,280     1,867,065        1,700,136    1,327,639      930,343     611,377
Total Deposits              1,960,123     1,921,602        1,696,790    1,366,538    1,019,678     648,387
Total Brokered                714,150       960,082          575,614      455,545      288,579     180,902
Deposits
Net Income (Loss)            (45,016)         4,062          20,978       16,657         9,771         2,665
Source: Uniform Bank Performance Reports (UBPR) for Georgian.




Causes of Failure and Material Loss
Georgian failed because its Board and management, led by a senior bank official, pursued
an aggressive growth strategy focused on acquisition, development, and construction
(ADC) lending that coincided with declining economic conditions in the Atlanta
metropolitan area. Although the growth strategy was initially successful, the resulting
increasing level of concentrations and corresponding lack of diversification in the loan
portfolio left the bank vulnerable to the significant downturn in the Atlanta metropolitan
residential real estate market. Concurrently, Georgian’s loan underwriting and
administration practices became increasingly lax and its financial condition began to
decline. Georgian’s reliance on brokered deposits to fund its growth and its relationship
3
  Until 2009, the FDIC defined a de novo institution as one within its first 3 years of operation. Georgian’s
de novo period ended November 2004. It was subsequently considered a young institution (defined as
institutions in their 4th through 9th years of operation). On August 28, 2009, the FDIC extended the de novo
period from 3 to 7 years in Financial Institution Letter (FIL) 50-2009, entitled, Enhanced Supervisory
Procedures for Newly Insured FDIC-Supervised Depository Institutions.


                                                      2
with a single large depositor also factored significantly in the bank’s failure. By 2009,
the bank’s assets were critically deficient, earnings were poor, capital was weak, and
prospects for raising additional capital were unfavorable. As its capital eroded,
Georgian’s largest depositor signaled its intent to withdraw its deposits, which severely
strained the bank’s liquidity position and ultimately led to its closure.

Aggressive Growth Strategy

Pursuant to the FDIC’s order approving deposit insurance, during its de novo period,
Georgian was required to notify the FDIC and the DBF of any proposed material change
to its business plan 60 days before implementing the change. On July 28, 2003, Georgian
submitted a proposed change in its business plan that represented a shift from the bank’s
original focus on providing community banking services in its local market area to
serving the middle market business and investment community in a broader geographic
area. According to financial projections, Georgian planned to focus on real estate
lending, primarily ADC and commercial real estate (CRE). Further, the bank’s revised
business plan reflected an aggressive growth strategy, with assets increasing from
$71 million to $1.4 billion in 5 years. As discussed later in this report, the FDIC and the
DBF approved this change. The bank’s assets grew from $249 million at year-end 2003
to $2.2 billion at year-end 2008, exceeding Georgian’s initial business projections.
Figure 1 illustrates Georgian’s asset growth between 2003 and 2008.

Figure 1: Georgian’s Asset Growth, 2003 to 2008

                             2,500,000

                             2,000,000
      Total Assets ($000s)




                             1,500,000

                             1,000,000

                              500,000

                                    0
                                    2003   2004      2005        2006        2007   2008
                                                  Years Ending December 31

Source: UBPRs for Georgian.




                                                      3
Dominant Official

The bank added several new directors and officers to its management team in 2003 to
guide its expansion and implement its new strategic direction. The change in strategic
direction was predominately led by one senior banking official, a veteran banker in
Atlanta who joined Georgian in 2003. According to examiners, this official dominated
decision-making and had a strong influence over other board members and bank
employees. For example, in conjunction with the 2005 examination, a director expressed
concerns that this individual did not allow the Board to openly discuss bank business at
the Board meetings. Additionally, this director asserted that issues were not allowed
proper debate during the meetings and the Board was not given sufficient time or
information for deliberation. In response to those allegations, examiners reviewed Board
minutes and concluded that the Board discussion did not appear to be dominated by this
individual. Nonetheless, examiners also noted that this individual ran all aspects of the
bank and that management often mentioned this individual as the reason why things were
done a certain way. Notwithstanding these observations, examiners indicated in the 2007
examination report that Board and management oversight was strong and that this official
was supported by a capable management team. However, the 2009 examination report
noted that this individual was slow to recognize the severity of the economic downturn
and address the significant problems facing the bank. On July 1, 2009, the bank notified
the FDIC that this official had been replaced.

Loan Concentrations

Georgian’s growth strategy resulted in concentrations in higher-risk ADC loans as well as
substantial lending to individual borrowers tied to the real estate construction industry.

ADC Lending

ADC loans comprised at least 48 percent of the bank’s average gross loans between 2003
and 2008. Further, as illustrated in Figure 2, the percentage of Georgian’s ADC loans to
average gross loans was consistently and significantly above the average for its peer
group.4




4
  Institutions are assigned to 1 to 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. De novo institutions are compared to
other banks that opened in the same period for 5 years. Accordingly, Georgian’s peer group included
institutions established in 2001 with assets less than $750 million. Subsequent to its de novo period,
Georgian’s peer group included institutions with assets between $1 billion and $3 billion.


                                                     4
Figure 2: Georgian’s ADC Loans as a Percentage of Average Gross Loans
          Compared to Peer Group, 2003 to 2008

                 60%
                 50%
                 40%
    Percentage




                 30%
                 20%
                 10%
                 0%
                   2003     2004            2005            2006            2007            2008
                                        Years Ending December 31

                                            Peer Group         Georgian

Source: UBPRs for Georgian.

Federal banking regulatory agencies issued guidance in December 2006, entitled,
Commercial Real Estate Lending, Sound Risk Management Practices (Joint Guidance), to
reinforce existing regulations and guidelines for real estate lending and safety and
soundness.5 The Joint Guidance focuses on those CRE loans for which cash flow from
the real estate is the primary source of repayment (i.e., ADC lending). The Joint
Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and notes that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Indeed, as noted in Georgian’s 2009
examination report, the bank’s risk profile increased significantly as the economy
declined and residential construction suffered a severe downturn.

The Joint Guidance does not establish specific CRE lending limits; rather, it promotes
sound risk management practices and appropriate levels of capital that will enable
institutions to pursue CRE lending in a safe and sound manner. Specifically, it states that
an institution that has experienced rapid growth in CRE lending, has notable exposure to
a specific type of CRE, or is approaching the following supervisory criteria may be
identified for further supervisory analysis of the level and nature of its CRE concentration
risk: (1) total ADC loans that represent 100 percent or more of the institution’s total
capital; or (2) total CRE loans that represent 300 percent or more of an institution’s total
capital, where the outstanding balance of the institution’s CRE loan portfolio has
increased by 50 percent or more during the prior 36 months. Table 2 summarizes
Georgian’s ADC concentrations in comparison to its peer group.


5
 The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).


                                                   5
Table 2: Georgian’s ADC Concentrations Compared to Peer Group
                                               ADC Loans as a
                                          Percentage of Total Capital
   Period Ending                  Georgian                         Peer Group
December 31, 2003                  174.52                             72.43
December 31, 2004                  417.81                             100.03
December 31, 2005                  441.20                             106.69
December 31, 2006                  441.07                             135.57
December 31, 2007                  436.11                             146.50
December 31, 2008                  471.82                             139.03
June 30, 2009                      559.33                             116.88
Source: UBPRs for Georgian.

According to the 2008 examination report, management recognized the need to diversify
its loan portfolio sometime in 2006 and began promoting the bank’s then-current
commercial and industrial products. Although this effort reduced its ADC portfolio, the
bank’s concentration levels remained high.

Individual Borrower Lending

In addition to its ADC concentration, examination reports for Georgian between 2004
and 2009 identified concentrations of 25 percent or more of Tier 1 Capital to individual
borrowers. Most of these individual relationships were heavily tied to the real estate
construction industry and depended on the sale of homes and/or lots as the primary
source of repayment. Consequently, as the real estate market declined, the guarantor’s
liquidity to service the debt became doubtful because the primary source of repayment
was significantly diminished. The 2009 examination report identified five such
individual borrower concentrations and, as discussed later in this report, these borrower
relationships were cited to be in apparent violation of the Georgia state legal lending
limit. Under the banking provisions of the Official Code of Georgia, these loans,
previously considered independent, were required to be combined for lending limit
purposes based on the determination by examiners that the five borrowers involved could
provide no evidence of a separate source of repayment and lacked the ability to service
the obligation from the operations of the separate companies. The change in status for
legal lending purposes was primarily driven by the deterioration in economic conditions.
Additionally, the 2009 examination report noted that 16 borrowers represented 34 percent
of total loans, or 347 percent of Tier 1 Capital. Most, if not all, of those relationships
were in the residential construction industry and 10 of the relationships were classified as
substandard.

Risk Management Practices

An institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk. The Joint Guidance reiterates that concentrations in CRE lending, coupled
with weak loan underwriting and depressed CRE markets, contributed to significant
credit losses in the past.



                                             6
According to the Joint Guidance:

      strong risk management practices are an important element of a sound CRE
       lending program, particularly when an institution has a concentration in CRE
       loans;
      financial institutions with CRE concentrations should ensure that risk
       management practices appropriate to the size of the portfolio, as well as the level
       and nature of concentrations, and the associated risk to the institution are
       implemented; and
      financial institutions should establish a risk management framework that
       effectively identifies, monitors, and controls CRE concentration risk.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a
Challenging Environment, issued March 17, 2008, provides key risk management
processes for institutions with CRE concentrations, including maintaining prudent,
time-tested lending policies with a strong credit review and risk rating system to identify
deteriorating credit trends early and maintaining updated financial and analytical
information for borrowers. For example, institutions should emphasize global financial
analysis of obligors, which involves analyzing borrowers’ complete financial resources
and obligations. The guidance further states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

Georgian’s management and Board did not establish effective risk management practices
sufficient to limit the bank’s exposure to ADC concentrations, allowing the growth of the
bank without implementing appropriate risk limits and requiring satisfactory monitoring.

Loan Underwriting and Credit Administration

In 2008, examiners noted various loan administration and credit underwriting issues and
indicated that Georgian’s management needed to:

      develop a relationship report to aid in measuring, monitoring, and controlling the
       increased risk presented by relationships where repayment of multiple loans was
       dependent on one borrower,
      improve external loan review methodology to ensure that complete loan
       relationships were reviewed, and
      track and monitor the aggregate volume of interest reserve balances and monitor
       the financial condition of its borrowers to ensure borrowers’ capacity for
       repayment remained viable.




                                             7
Further, in the February 2009 examination, examiners outlined a number of loan
underwriting and credit administration concerns, including:

        lax limitations and guidelines on ADC lending,
        liberal loan underwriting terms,
        lack of global cash flow analyses,
        inadequate pricing of risk,
        improper utilization of interest reserves,
        inadequate recognition of collateral-dependent loans, monitoring of individual
         concentrations, and review of appraisals.

Examiners also stated that management had not consistently applied guidelines and
recommendations made in the Joint Guidance. For example, management did not
develop an adequate action plan to reduce problem assets. Instead, management placed a
large volume of loans on a deferred payment structure (principal and interest at maturity),
which overstated interest income and understated past-due loans. In many cases, matured
ADC loans were renewed to 1-year, single payment loans in the hope that the residential
real estate market and the economy in general would recover in the coming year. The
bank renewed many of these loans in 2008 without formally evaluating the change in
market conditions, as required under FDIC Rules and Regulations, Part 323, Real Estate
Appraisals. Further, management did not have an adequate exit strategy in place to
combat a significant downturn in the real estate construction industry.

Allowance for Loan and Lease Losses

On December 13, 2006, the federal financial institutions regulatory agencies issued an
Interagency Policy Statement on the Allowance for Loan and Lease Losses (ALLL Policy
Statement) that reiterated key concepts and requirements related to generally accepted
accounting principles (GAAP)6 and existing supervisory guidance. Specifically, the
ALLL Policy Statement describes the nature and purpose of the ALLL; the
responsibilities of boards of directors, management, and examiners; factors to be
considered in the estimation of the ALLL; and the objectives and elements of an effective
loan review system, including a sound credit grading system. The ALLL Policy
Statement notes that determining the appropriate level for the ALLL is inevitably
imprecise and requires a high degree of management judgment. An institution's process
for determining the ALLL should be based on a comprehensive, well-documented, and
consistently applied analysis of its loan portfolio that considers all significant factors that
affect collectability. That analysis should include an assessment of changes in economic
conditions and collateral values and their direct impact on credit quality. If declining
credit quality trends relevant to the types of loans in an institution's portfolio are evident,
the ALLL level as a percentage of the portfolio should generally increase, barring
unusual charge-off activity.



6
 Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies and
FAS No. 114, Accounting by Creditors for Impairment of a Loan.


                                                  8
The February 2009 examination cited Georgian for being in contravention of the ALLL
Policy Statement. According to the examination report, management had not fully
incorporated requirements of financial accounting standards, as required by the policy
statement, into the ALLL methodology and did not maintain supporting documentation to
justify the adequacy of the ALLL. Specifically, examiners found that:

       current market conditions were not reflected in certain reserve percentages,
       management had not been proactive in identifying problem credits, and
       new appraisals or evaluations had not been obtained to facilitate accurate
        impairment analysis or for measuring fair value of collateral-dependent loans.

Ultimately, based on 2009 examination findings and measuring collateral-dependent
loans at fair value, examiners recommended that management charge off almost
$23 million as a loss.

Contraventions and Violations of Regulatory Requirements

Georgian was also cited for being in contravention or in violation of regulatory
requirements—an indication of weak risk management practices. Specifically, the 2004,
2005, 2008, and 2009 examination reports noted apparent legal lending violations of
Section 7-1-285 of the Official Code of Georgia, which sets limits on loans and
obligations an institution may extend to any one person or corporation. In 2004, the bank
recognized that a loan to a certain borrower would trigger the legal lending limit and took
steps to sell a participation in the loan to another institution. However, the apparent
violation was cited because the participation agreement was not executed in a timely
manner. The 2005 examination report cited the bank for an apparent violation because
the bank extended a loan in excess of the limit and there was no evidence of advanced
approval by the Board or a committee authorized to act for the Board as required by
Georgia law. The 2008 examination cited the bank for apparent violation related to one
borrower who exceeded the unsecured lending limits based on the bank’s financial
position as of September 30, 2007.

Furthermore, Rule 80-1-5-.01 (13) of Georgia’s Rules and Regulations7 states, in part,
that the liabilities of separate persons, corporations, and entities shall be combined for
lending limit purposes when there is (1) no evidence of a separate source of repayment,
or (2) an apparent lack of ability to service the obligation from the operations of the
separate person or corporation without relying on a related source of repayment, or
(3) where the separate entities make common use of or are dependent upon funds of the
group. As discussed earlier in this report, the 2009 examination cited an apparent
violation of this rule because loans that were previously considered independent were
combined based on the determination by examiners that the five borrowers involved
could provide no evidence of a separate source of repayment and lacked the ability to
service the obligation from the operations of the separate companies.

7
 Effective September 6, 2009, pertinent sections of the Rules and Regulations of Georgia were amended.
Rule 80-1-5.11 now sets forth provisions regarding the combination of debt for legal lending limit
purposes.


                                                   9
The 2009 examination report also cited Georgian for the following violations:

       Failure to comply with Part 364 of the FDIC Rules and Regulations, Standards
        for Safety and Soundness: The findings of the examination reflected the bank’s
        failure to comply with Appendix A - Section II - Operational and Managerial
        Standards. Included in these findings were noncompliance with standards for
        internal controls and information systems, loan documentation, credit
        underwriting, asset growth, and asset quality.

       Multiple apparent violations of Part 323 of FDIC Rules and Regulations,
        Appraisals, related to (1) loans renewed with no extension of new funds without
        a formal evaluation given the change in market conditions, (2) failure to obtain
        an appraisal, and (3) failure to conform to generally accepted appraisal standards.

       Failure to implement recommendations set forth in the Joint Guidance regarding,
        among other things, risk assessments, contingency plans, market analysis, credit
        underwriting, and stress testing.

In addition, the 2009 examination report cited Georgian for being in contravention of the
Interagency Policy Statement on the Allowance for Loan and Lease Losses, as discussed
in the previous section of this report.

Funding Strategy

Georgian’s reliance on brokered deposits to fund its growth and a relationship with a
single large depositor also contributed to the bank’s failure.

Non-Core Funding Dependence

Georgian maintained a significant dependence on non-core funding sources, including
brokered deposits, to fund its growth. Brokered deposits increased from 5 percent of total
deposits on December 31, 2002, to 50 percent of total deposits on December 31, 2008.
Table 3 summarizes Georgian’s funding sources from 2004 to 2009.




                                            10
Table 3: Georgian’s Core and Non-Core Funding Sources, 2004 to 2009
                                                                                       Federal Home
                                                                 Time Deposits          Loan Bank
  Period               Core Deposits           Brokered           of $100M or             (FHLB)
  Ending                                       Deposits               More              Borrowings

                                                           ($000s)
   Dec-04                 424,641               180,902                 223,746            17,000
   Dec-05                 702,391               288,579                 317,287            17,000
   Dec-06                 801,584               455,545                 564,953            57,000
   Dec-07                 978,185               575,614                 718,607            82,000
   Dec-08                1,801,539              960,082                 120,063            82,000
   Jun-09                1,708,145              714,150                 251,978            82,000
 Source: UBPRs for Georgian.


The FDIC Risk Management Manual of Examination Policies states that the non-core
funding dependence ratio is a key measure of the degree to which the bank relies on
potentially volatile liabilities, such as, but not limited to, certificates of deposit over
$100,000 and brokered deposits to fund long-term earning assets. Generally, the lower
the ratio, the less risk exposure there is for the bank, whereas higher ratios reflect reliance
on funding sources that may not be available in times of financial stress or adverse
changes in market conditions. Figure 3 illustrates Georgian’s net non-core funding
dependence ratio compared to its peer group, from 2004 to 2009.

Figure 3: Georgian’s Net Non-Core Funding Dependence Ratio, 2004 to 2009


                 70%
                                                                              57.85%
                 60%
                 50%
    Percentage




                                                  37.87%       39.72%                       47.45%
                 40%   33.90%
                                     25.19%
                 30%
                                                                             35.29%     30.88%
                 20%                  26.38%       27.27%      29.31%
                 10%    20.45%

                 0%
                        Dec-04       Dec-05      Dec-06        Dec-07        Dec-08     Jun-09

                                                Georgian        Peer Group

Source: UBPRs for Georgian.


Relationship with a Large Depositor

Georgian was also reliant on a single large depositor, a privately-held trust company with
assets of $60 billion under its administration. According to examiners, the deposit
relationship began in 2003 and appears to have been brought to the bank by the senior
banking official discussed previously in this report. By 2009, this relationship


                                                          11
represented approximately $212 million in deposits. When the bank’s capital levels fell
to Adequately Capitalized, the depositor signaled its intent to withdraw its deposits by
October 2009 and this resulted in a strained liquidity position for the bank.


The FDIC’s Supervision of Georgian
The FDIC and the DBF conducted timely and regular examinations of Georgian and
monitored its condition through the use of offsite monitoring mechanisms. Examiners
consistently identified and reported on Georgian’s ADC concentrations and reliance on
non-core funding. However, the bank’s asset quality, liquidity, and overall financial
condition were considered satisfactory until the 2008 examination. In 2008, asset quality
was showing signs of deterioration due to the severe economic downturn, and offsite
analysis prompted an FDIC visitation in December 2008. In hindsight, more supervisory
emphasis on Georgian’s risk management practices prior to the visitation in December
2008 would have been prudent. Doing so might have been beneficial in raising bank
management’s awareness of the broad supervisory expectations with regard to managing
risk associated with CRE and ADC concentrations, which ultimately Georgian failed to
meet. Further, examiners could have earlier recognized and emphasized Georgian’s lack
of a viable contingency funding plan, in light of the bank’s reliance on non-core funding
and a single large depositor. Once problems were identified, the FDIC and the DBF
pursued supervisory actions. However, by the time those actions became effective, the
financial condition of the bank had become critically deficient.

In addition to specific supervisory action taken with respect to Georgian, the FDIC either
on its own, or jointly with the other federal banking agencies, has issued guidance
relevant to the causes of the institution’s failure. For example, guidance was issued in
2008, 2009, and more recently in March 2010, on liquidity management and the use of
volatile or special funding sources by financial institutions that are in a weakened
condition. Additionally, in 2009, the FDIC issued guidance extending the de novo period
in recognition that unseasoned institutions may warrant stronger supervisory attention.
Further, the FDIC recently established procedures to better communicate and follow up
on risks and deficiencies identified during examinations.

Supervisory History

Georgian was examined nine times between 2001 and 2009 and received a composite “2”
CAMELS rating8 at the first seven examinations. Our review focused on the FDIC’s
supervision of Georgian between 2004 and its failure in 2009. During that period, the
FDIC and the DBF conducted five safety and soundness examinations and the FDIC
completed one visitation in 2008. In the 2007 examination, the FDIC used Maximum

8
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                   12
Efficiency, Risk-focused, Institution Targeted (MERIT)9 examination procedures. Table
4 summarizes the examination and visitation history for Georgian, from 2004 to 2009.

Table 4: Examinations and Visitation of Georgian, 2004 to 2009
                                                      Supervisory
    Start Date      As of Date         Agency            Rating               Supervisory Action
    11/15/2004      09/30/2004          FDIC            212332/2
    11/28/2005      09/30/2005           DBF            212222/2
    01/09/2007      09/30/2006          FDIC            211222/2
    01/14/2008      09/30/2007           DBF            232222/2
    11/24/2008         N/A              FDIC           343332*/3         Bank Board Resolution (BBR)
                                      (Visitation)
    02/02/2009      12/31/2008           Joint           554555/5        Cease and Desist (C&D) Order
Source: Reports of Examination (ROE) and Visitation Report for Georgian.
*Sensitivity to market risk was not reviewed at the visitation but this rating was included in the visitation
memorandum.

In addition to the on-site examinations, Georgian was flagged for offsite review once in
2005 and twice in 2008. The second quarter 2008 offsite review, completed in October
2008, noted that although Georgian maintained a significant exposure to ADC lending, its
overall performance was showing no signs of deterioration, unlike other institutions with
similar exposure. Nonetheless, the FDIC scheduled a targeted visitation during the fourth
quarter of 2008 that focused on underwriting practices that were potentially masking loan
portfolio problems, liquidity levels, and contingency plans.

Specifically, the November 2008 visitation focused on a review of the bank’s 10 largest
commercial loans and the accompanying ALLL methodology. A limited review of the
bank’s capital adequacy, earnings, and liquidity was also conducted. The visitation
identified significant deterioration in Georgian’s overall performance and, on
December 16, 2008, the bank’s Board adopted a BBR in response to the visitation’s
findings. The BBR included provisions that addressed the ALLL, the establishment of a
compliance committee, a review of the loan policy, a plan to reduce concentrations of
credit, the adoption of a capital plan, a prohibition on additional brokered deposits, the
preparation of a strategic business plan, and a review and amendment of the bank’s
interest rate risk policy.

The February 2009 full-scope joint examination determined that Georgian’s overall
condition was poor and had deteriorated significantly since the prior regulatory
examination and resulted in a composite “5” CAMELS rating. The FDIC and the DBF
pursued the implementation of a formal enforcement action, a C&D, to address the issues
noted at the examination. The bank stipulated to the C&D on August 24, 2009.



9
 In 2002, DSC implemented MERIT guidelines to assist examiners in risk-focusing examination
procedures in institutions with lower-risk profiles. Under this program, the loan penetration ratio range for
an examination was guided by the asset quality rating at the prior examination. In March 2008, DSC
eliminated MERIT examination procedures.


                                                        13
The C&D required the bank to, among other things:

      increase Board participation in the affairs of the bank;
      retain qualified management;
      achieve and maintain its Tier 1 Capital at not less than 8 percent and its Total
       Risk-based Capital ratio of at least 10 percent;
      eliminate from its book by charge-off or collection assets or portions of assets
       classified as losses and 50 percent of doubtful loans;
      not extend, directly or indirectly, any additional credit to, or for the benefit of, any
       borrower who has a loan or other extension of credit from the bank that has been
       charged off or classified;
      review, revise, and implement its written lending policy;
      reduce concentrations of credit;
      review the ALLL policy and methodology;
      eliminate/correct all violations of law and contraventions of statement of policy;
      review liquidity and funds management and develop or revise, adopt, and
       implement a written contingency liquidity plan;
      formulate a written plan to reduce classified items;
      revise its internal loan review grading system;
      not pay cash dividends without prior written consent;
      not accept, renew, or roll over any brokered deposits and submit a written plan for
       reducing its reliance on brokered deposits;
      review its interest rate policy; and
      limit asset growth to 10 percent per annum.

Supervisory Concern Related to Aggressive Growth Strategy

Prior to the end of Georgian’s de novo period in November 2004, as discussed earlier in
this report, Georgian was required to notify the FDIC and the DBF of any proposed
material change to its business plan. Consistent with that requirement, Georgian notified
both the FDIC and the DBF, and they approved Georgian’s 2003 proposal to raise
additional capital and change its business focus. At that time, officials viewed
Georgian’s plan as reasonable based on the fact that a management team with a proven
track record at other institutions with similar strategies would be implementing the plan.
Although the FDIC approved the plan, it also recommended closely monitoring the
bank’s progress in implementing the strategy. In the 2004 examination, examiners
compared Georgian’s business plan projections to its actual performance. Table 5
provides a summary of key comparisons made as of September 30, 2004.




                                             14
Table 5: Georgian’s Business Plan Compared to Actual Performance in 2004
                                    Actual
  Category       Business Plan   Performance       Variance       Explanation for Variance
  Net Income         $1,811         $1,331          (27%)     The variance was attributed to
   ($000s)                                                    higher interest expense that was
                                                              linked to (1) a higher volume of
                                                              deposits and (2) the bank paying
                                                              higher than market rates on
                                                              deposits.
Total Deposits      $274,041       $547,913         99.93%    Deposit growth was significantly
    ($000s)                                                   above projections and was
                                                              attributed to the bank’s ability to
                                                              obtain higher volume deposits,
                                                              especially from Internet and
                                                              brokered deposits. The bank
                                                              offered above average rates on
                                                              Certificates of Deposit (CD).
 Total Loans        $304,656       $546,551          79%      The volume of real estate and
   ($000s)                                                    commercial lending was greater
                                                              than projected as a result of higher
                                                              demand in Georgian’s market.
Source: 2004 ROE for Georgian.

Subsequent to this comparison, the 2005 examination report did not explicitly comment
on the bank’s growth strategy, other than to note that holding company capital injections
continued to support the bank’s asset growth of 70.65 percent for the first 3 quarters of
2005 and also resulted in an increase to the Tier 1 Leverage Capital Ratio. In 2006,
examiners noted that the Tier 1 Leverage Capital Ratio declined despite additional capital
injections due to continued strong asset growth. The 2007 examination report noted
additional capital infusions and also that management expected asset growth to reach
$400 million, resulting in total assets of $2 billion. Examiners stated asset quality was
strong and viewed management and the Board as capable and providing strong oversight.

In 2009, the FDIC recognized that unseasoned institutions may warrant stronger
supervisory attention. Specifically, in FIL-50-2009, the FDIC stated that recent
experience had demonstrated that newly-insured institutions posed an elevated risk to the
DIF. The FDIC had found that a number of newly-insured institutions, like Georgian,
had pursued changes in business plans during the first few years of operation that had led
to increased risk and financial problems because accompanying controls and risk
management practices were inadequate. Accordingly, to address the heightened risks
presented by newly-insured depository institutions, the FDIC extended the supervisory
procedures for the de novo period from 3 to 7 years, and now requires the institutions to
remain on a 12-month examination cycle and to obtain prior FDIC approval of any
material change in an institution's business plan during the de novo period. In Georgian’s
case, the FDIC and the DBF approved the change in the business plan and kept the bank
on a 12-month examination cycle but, going forward, acknowledged they would likely
focus more supervisory attention on the growth rate and risk management practices.




                                              15
Supervisory Concern Related to ADC Concentrations and Risk Management

Examiners consistently identified Georgian’s ADC concentrations and made a number of
recommendations related to risk management practices between 2004 and 2008.
Nevertheless, during that period, examiners generally found risk management processes
to be adequate in relation to economic conditions and asset concentrations.

November 2004 and November 2005 Examinations

In November 2004, examiners noted significant increases in ADC concentrations and
recommended that limits be established for speculative loans. They also noted individual
concentrations and recommended that procedures be improved to identify, monitor, and
report the concentrations to the Board. In 2005, examiners again identified
concentrations and made recommendations to ensure that the bank’s Board (1) reviewed
quarterly reports listing the major lines of credit, including individual concentrations and
their relationship to Tier 1 Capital and (2) received a summary report outlining the bank’s
ADC concentration, including a calculation of funded and unfunded concentrations as a
percentage of Tier 1 Capital.

January 2007 Examination

The FDIC 2007 examination identified significant concentrations that were deemed to be
adequately monitored and controlled. Examiners commented that strong asset quality
was indicative of management’s conservative investment and lending philosophies, as
well as management’s approach to identifying and servicing problem credits. In addition,
examiners noted that the Board had established adequate policies and oversight to
provide management satisfactory guidance, but recommended that global cash flow
analyses be implemented for borrowers with multiple relationships.

Although the asset quality and management components were each assigned “1” ratings,
there were signs of increasing risks in that total loans had increased from $941 million at
the 2005 examination, to $1.3 billion at the 2007 examination. In addition, the adversely
classified items coverage ratio increased from 2.97 percent at the prior examination, to
6.97 percent at the 2007 examination, and the net non-core funding dependence had
increased from 25 percent to 38 percent during that timeframe. Finally, loan
penetration10 was reduced from previous examinations because examiners used MERIT
procedures. Specifically, loan penetration was 38 percent in 2004, 31 percent in 2005,
and 20 percent in 2007. FDIC officials stated that the use of MERIT procedures was not
a factor in their classification of Georgian’s loan portfolio in 2007. Under MERIT,
examiners had the option of expanding the sample had issues been uncovered.




10
  Loan penetration is calculated by dividing the total volume of nonhomogenous loans reviewed by the
total dollar volume of nonhomongenous loans. Nonhomogenous loans are broadly defined as loans that are
commercial or agricultural in nature and which generally require individual loan review.


                                                 16
January 2008 Examination

Although the overall condition of Georgian was determined to be satisfactory, the asset
quality component rating was deemed less than satisfactory and reduced from a “1” to a
“3”, and the management component rating was downgraded to a “2”. However, the
DBF examination did not result in either a formal or informal supervisory action.
Concentrations were noted, and DBF examiners commented that the exposure had
resulted in a decline in asset quality but was mitigated by management's reduction in
ADC lending since the last examination. Examiners stated that the decline in asset
quality was primarily driven by deterioration in the real estate market, in which the bank
had significant exposure through concentrations of credit. Examiners credited
management with pursuing a strategy of portfolio diversification and reducing the
concentration in ADC lending; however, they also noted that exposure remained at a
level that could be problematic if market conditions continued to decline. Other risks
identified included a substantial increase in the adversely classified items coverage ratio
since the prior examination from 6.97 percent to 50.13 percent. Recommendations were
related to improvements to the loan policy and loan administration.

To ensure that examiner follow-up is conducted, the FDIC issued guidance in January
2010 that defines a standard approach for communicating matters requiring bank Board
attention (e.g., examiner concerns and recommendations) in examination reports. The
guidance states that examination staff should request a response from the institution
regarding the action that it will take to mitigate the risks identified during the
examination and correct noted deficiencies. This approach provides examiners with
another tool to hold the Board and management accountable for improved performance
and should also facilitate effective supervisory follow-up. The DBF outlined the
recommendations clearly in the examination report and also requested that the Board
provide a response to the FDIC and the DBF within 30 days. The process the DBF
followed is consistent with the recently issued supervisory guidance.

November 2008 Visitation

Examiners determined that the bank’s risk profile had significantly increased due to its
material concentration in ADC lending. Adversely classified loans, other real estate
owned, and non-accrual loans greater than 90-days past due represented 145 percent of
capital and reserves. Several inappropriate loan underwriting practices were also
revealed. Examiners recommended that the bank’s asset quality rating be downgraded to
a “4” and the composite rating downgraded to a “3”. Examiners concluded that
management needed to reduce the bank's concentration in ADC lending and increase
capital to a level commensurate with the bank's risk profile and, as previously discussed
in this report, management adopted a BBR to correct deficiencies noted at the visitation.

February 2009 Examination

Georgian’s financial condition was considered unsatisfactory and its composite rating
was downgraded to a “5” rating. Further, the examination report noted that a majority of
the provisions in the BBR had not yet been implemented. Overall, the FDIC and the


                                             17
DBF deemed the bank’s risk management practices to be unacceptable relative to the
institution’s size, complexity, and risk profile.

As discussed previously, Georgian stipulated to a C&D that became effective on
August 31, 2009, but the order came too late to have any meaningful impact on the
bank’s viability. The bank closed on September 25, 2009 due to liquidity concerns. In
hindsight, earlier and stronger supervisory action (i.e., prior to the November 2008
visitation) to address Georgian’s high-risk profile and risk management weaknesses
associated with the ADC concentration may have been prudent. Such action may have
persuaded the bank’s Board and management to take more timely and meaningful action
to address the bank’s increasing risk profile.

Supervisory Concern Related to Funding Strategy

Examiners consistently noted Georgian’s increasing reliance on potentially volatile
funding sources in each of the examination reports we reviewed but generally found the
bank’s funds management to be satisfactory, except in 2004 and in the final visitation and
examination. By that time, the deterioration of asset quality had begun to have an
adverse impact on Georgian’s overall funds management practices.

Specifically, in 2004, examiners found Georgian’s liquidity position to be marginal
because of management’s heavy reliance on potentially volatile sources to fund rapid
growth, and the liquidity component was rated a “3” as it had been in the prior
examination. Examiners requested that management submit monthly financial
statements, including liquidity and net non-core funding ratios, to the DBF. In 2005,
examiners found the bank’s liquidity position had improved and ranked the liquidity
component a “2”, indicating satisfactory liquidity levels and funds management practices.
Further, this rating indicated that the institution had access to sufficient sources of funds
on acceptable terms to meet present and anticipated liquidity needs and modest
weaknesses may be evident in funds management practices.

Georgian’s liquidity component rating remained a “2” in the 2007 and 2008
examinations, despite a significantly increased reliance on potentially volatile funding
sources, because examiners concluded that Georgian’s liquidity levels and monitoring
practices were satisfactory. For example, the 2008 examination report stated that the
bank’s liquidity position was adequate, funds management procedures were considered
satisfactory, and secondary sources of funds appeared to meet the current needs of the
bank. However, by the November 2008 visitation, examiners deemed the bank’s
liquidity component to be unsatisfactory, and the 2009 examination report indicated that
liquidity and funds management practices were deficient. The 2009 examination report
noted that Georgian’s strained financial condition might reduce the bank’s ability to
attract funds in the open market on reasonable terms and borrowing lines may be
reduced.

Indeed, the poor asset quality identified during the 2009 examination necessitated a loan
loss provision that reduced Georgian’s capital position to Adequately Capitalized, which
resulted in brokered deposit restrictions. Specifically, FDIC’s Rules and Regulations Part


                                             18
337, Unsafe and Unsound Banking Practices, which implements section 29 of the FDI
Act, state that any Well Capitalized insured depository institution may solicit and accept,
renew, or roll over any brokered deposit without restriction. However, Adequately
Capitalized institutions must receive a waiver from the FDIC before they can accept,
renew, or roll over any brokered deposit. As stated earlier, Georgian’s largest deposit
relationship was also affected when the bank fell below Well Capitalized.

In August 2008, the FDIC issued guidance, FIL-84-2008 entitled Liquidity Risk
Management, that described the FDIC's expectations for insured institutions that have
shifted from asset-based liquidity strategies (i.e., maintaining pools of highly liquid and
marketable securities to meet unexpected funding needs) to liability-based or off-balance
sheet strategies (i.e., funding partly through securitization, brokered/Internet deposits, or
borrowings). Institutions that use wholesale funding, securitizations, brokered deposits,
and other high-rate funding strategies should ensure that their contingency funding plans
address relevant stress events. Contingency funding plans should incorporate events that
could rapidly affect an institution's liquidity, including a sudden inability to securitize
assets, tightening of collateral requirements or other restrictive terms associated with
secured borrowings, or the loss of a large depositor or counterparty.

Although Georgian prepared a contingency funding plan in January 2009, it was
developed too late to be effective in addressing the bank’s liquidity crisis. In that regard,
examiners could have earlier recognized and emphasized Georgian’s lack of a viable
contingency funding plan, in light of the bank’s reliance on non-core funding and a single
large depositor. Earlier development of such a plan at Georgian might have alerted
management to the risks inherent in their funding strategy in time to better mitigate those
risks.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA (section 38 of the FDI Act) establishes a system
of restrictions and mandatory and discretionary supervisory actions that are to be
triggered depending on an institution’s capital levels. Part 325, Capital Maintenance, of
the FDIC’s Rules and Regulations implements PCA requirements by establishing a
framework for taking prompt corrective action against insured state-chartered
nonmember banks that are not Adequately Capitalized.

In addition to including provisions in the August 2009 C&D on minimum capital
requirements, as discussed earlier in the report, the FDIC followed PCA guidance and
appropriately notified the bank on June 30, 2009 that the bank was considered Adequately
Capitalized. Although the FDIC followed PCA guidance, by the time Georgian’s capital
levels fell below the required thresholds necessary to implement PCA, the bank’s
condition had deteriorated to the point at which the institution could not raise additional
capital. At no time was the bank Undercapitalized for purposes of PCA, which would
have triggered additional restrictions and requirements under PCA.




                                             19
Prior to falling below Well Capitalized, Georgian had submitted an application for the
Troubled Asset Relief Program on October 29, 2008 for funding of $59 million.
Georgian subsequently withdrew its application on February 18, 2009. The bank was
unsuccessful in raising capital and was closed on September 25, 2009.


Corporation Comments

After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
April 7, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Georgian’s failure. With regard to our
assessment of the FDIC’s supervision of Georgian, DSC’s response stated that examiners
consistently noted Georgian’s ADC concentrations and reliance on non-core funding and
made numerous recommendations to improve risk management practices and procedures
to identify and report concentrations to the Board. In response to the FDIC’s November
2008 visitation, which revealed significant deterioration in Georgian’s overall condition,
the Board adopted a resolution agreeing to address identified weaknesses. However,
Georgian’s management and Board were unable to sufficiently address its problems, and
the FDIC and the DBF took action through a formal enforcement order. DSC’s response
acknowledged, as discussed in our report, that greater emphasis on the correction of
Georgian’s risk management practices prior to the November 2008 visitation could have
influenced its Board and reduced resulting losses. Further, DSC’s response identified
updated guidance it has issued, also discussed in our report, to enhance supervision of
institutions, such as Georgian, with concentrations in CRE/ADC lending and reliance on
volatile non-core funding.




                                            20
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision,
including implementation of PCA, of the institution. The FDI Act requires that the report
be completed within 6 months after it becomes apparent that a material loss has been
incurred.

Our audit objectives were to (1) determine the causes of Georgian’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of Georgian, including
implementation of the PCA provisions of section 38.

We conducted this performance audit from December 2009 to April 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by FDIC and DBF examiners from 2004
         to 2009.

        Reviewed the following:

              Bank data contained in UBPRs and Call Reports.
              Correspondence maintained at DSC’s Atlanta Regional and Atlanta Field
               Offices.
              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.
              Information obtained from DSC’s Virtual Supervisory Information on the
               Net.
              Pertinent DSC policies and procedures.

        Interviewed the following FDIC officials:

              DSC regional management in Atlanta, Georgia.
              DSC examiners in the Atlanta Field Office.
              DRR officials.


                                             21
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


        Interviewed DBF officials from Atlanta, Georgia, to discuss their perspectives of
         the institution, its examinations, and other activities regarding DBF’s supervision
         of the bank.

We performed the audit field work at the OIG offices in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Georgian’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act, and of the FDIC Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                              22
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

De novo Bank        Prior to the issuance of FIL-50-2009 on August 28, 2009, and for the
                    purposes of FDIC-supervised institutions, this term referred to an
                    institution within its first 3 years of operation. FIL-50-2009 changed the
                    de novo period for newly-chartered FDIC-supervised institutions from
                    3 years to 7 years. This FIL does not apply to de novo bank subsidiaries
                    of “eligible holding companies”, i.e., those with $150 million in
                    consolidated assets, that are 2 rated, and with at least 75 percent of
                    consolidated depository institution assets comprised of eligible
                    depository institutions. Under the new de novo period, institutions must
                    undergo a limited-scope examination within the first 6 months of
                    operation, and a full-scope examination within the first 12 months of
                    operation. Subsequent to the first examination, and through the 7th year
                    of operation, institutions remain on a 12-month examination cycle.
                    Extended examination intervals (i.e., 18-month intervals) do not apply
                    during the de novo period.




                                            23
                                                                                 Appendix 2

                               Glossary of Terms
Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

Tier 1 (Core)       In general, this term is defined in Part 325 of the FDIC Rules and
Capital             Regulations, 12 C.F.R. section 325.2(v), as
                    The sum of:
                    • Common stockholder’s equity (common stock and related surplus,
                    undivided profits, disclosed capital reserves, foreign currency translation
                    adjustments, less net unrealized losses on available-for-sale securities
                    with readily determinable market values);
                    • Non-cumulative perpetual preferred stock; and
                    • Minority interest in consolidated subsidiaries;
                    Minus:
                    • Certain intangible assets;
                    • Identified losses;
                    • Investments in financial subsidiaries subject to section 12 C.F.R.
                      part 362; and
                    • Deferred tax assets in excess of the limit set forth in section 325.5(g).


Troubled Asset      TARP is a program of the United States Department of the Treasury to
Relief Program      purchase assets and equity from financial institutions to strengthen the
(TARP)              financial sector.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.


                                            24
                                                           Appendix 3

                        Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CD       Certificate of Deposit
CRE      Commercial Real Estate
DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
MERIT    Maximum Efficiency, Risk-focused, Institution Targeted
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                              25
                                                                                      Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         April 7, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Georgian Bank, Atlanta,
                  Georgia (Assignment 2010-008)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Georgian
Bank, Atlanta, Georgia (Georgian) which failed on September 25, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on March 23, 2010.

The Report concludes that Georgian Bank (Georgian) failed because the Board of Directors
(Board) and management pursued an aggressive growth strategy concentrated in acquisition,
development and construction (ADC) loans, noting that these loans accounted for at least 48
percent of Georgian’s average gross loans between 2003 and 2009. The lack of a diversified
loan portfolio made Georgian vulnerable to the downturn in the residential real estate market in
the Atlanta metropolitan area in 2008. The Report also cites lax loan underwriting and
administration, reliance on brokered deposits and potentially volatile sources to fund its growth,
as additional contributors to Georgian’s failure.

Georgian opened for business in 2001, and in mid-2003 shifted its business focus from a
community-centered bank to a medium-size business bank. From 2001 to 2009, the FDIC and
the Georgia Department of Banking and Finance (DBF) conducted 9 examinations. Examiners
consistently noted Georgian’s ADC concentrations and reliance on non-core funding and made
numerous recommendations to improve risk management practices and procedures to identify,
monitor and report concentrations to the Board. The November 2008 visitation revealed
significant deterioration in Georgian’s overall condition and as a result, the Board adopted a
Resolution agreeing to address identified weaknesses. However, Georgian’s management and
Board were unable to sufficiently address its problems, and the FDIC and DBF took action
through a formal enforcement order.

Greater emphasis on correction of Georgian’s risk management practices prior to the November
2008 visitation could have influenced its Board and reduced the resulting losses. DSC has issued
updated guidance requiring prompt follow-up on all institutions when recommendations are
made to the Boards of Directors. Additionally, DSC issued a Financial Institution Letter in 2009
on The Use of Volatile or Special Funding Sources by Financial Institutions That Are in a
Weakened Condition to enhance our supervision of institutions, such as Georgian, with
concentrated commercial real estate/ADC lending and reliance on volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.


                                                  26
